<html>
<title> - [H.A.S.C. No. 112-10]EQUIPPING THE WARFIGHTER IN AFGHANISTAN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-10]
 
                EQUIPPING THE WARFIGHTER IN AFGHANISTAN

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 1, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
65-110                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>  
                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 ROSCOE G. BARTLETT, Maryland, Chairman
FRANK A. LoBIONDO, New Jersey        SILVESTRE REYES, Texas
JOHN C. FLEMING, M.D., Louisiana     MIKE McINTYRE, North Carolina
TOM ROONEY, Florida                  JIM COOPER, Tennessee
TODD RUSSELL PLATTS, Pennsylvania    GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             NIKI TSONGAS, Massachusetts
JON RUNYAN, New Jersey               LARRY KISSELL, North Carolina
MARTHA ROBY, Alabama                 MARTIN HEINRICH, New Mexico
WALTER B. JONES, North Carolina      BILL OWENS, New York
W. TODD AKIN, Missouri               JOHN R. GARAMENDI, California
JOE WILSON, South Carolina           MARK S. CRITZ, Pennsylvania
MICHAEL TURNER, Ohio                 KATHY CASTOR, Florida
BILL SHUSTER, Pennsylvania
DOUG LAMBORN, Colorado
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, March 1, 2011, Equipping the Warfighter in Afghanistan..     1

Appendix:

Tuesday, March 1, 2011...........................................    23
                              ----------                              

                         TUESDAY, MARCH 1, 2011
                EQUIPPING THE WARFIGHTER IN AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3

                               WITNESSES

Dee, Thomas P., Director, Joint Rapid Acquisition Cell, Office of 
  the Under Secretary of Defense, Acquisition, Technology and 
  Logistics......................................................     4
Solis, William M., Director, Defense Capabilities and Management, 
  Government Accountability Office...............................     9

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    27
    Dee, Thomas P................................................    31
    Reyes, Hon. Silvestre........................................    29
    Solis, William M.............................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................    57
    Mr. Turner...................................................    61
                EQUIPPING THE WARFIGHTER IN AFGHANISTAN

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                            Washington, DC, Tuesday, March 1, 2011.
    The subcommittee met, pursuant to call, at 3:35 p.m., in 
room 2118, Rayburn House Office Building, Hon. Roscoe G. 
Bartlett (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE 
FROM MARYLAND, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Bartlett. The Tactical Air and Land Forces Subcommittee 
meets today to receive testimony on the Department of Defense 
processes and procedures currently used to rapidly respond to 
and fulfill urgent warfighter capability requirements.
    These urgently required capabilities are defined by the 
Department of Defense as capabilities that if left unfulfilled, 
usually within days or weeks, could result in the loss of life 
and/or prevent the successful completion of a near-term 
military mission.
    We just received a classified briefing on equipping U.S. 
Forces in Afghanistan and learned of the current capabilities 
being used by the warfighter, as well as what the warfighter 
currently requires. We want to make sure that the processes are 
in place or get put in place to get our warfighters the 
equipment they need as quickly as they can get that equipment.
    The Department's record in quickly getting needed 
capabilities to the warfighter has not been what it should have 
been. This was most evident in the Department's slow response 
to the improvised explosive device threat. On the other end of 
the spectrum of responsiveness is the Mine Resistant Ambush 
Protected vehicle program, which shows what can be done when 
the Department of Defense partners with industry.
    We believe we have now fielded the best warfighter 
equipment available, but as long as we have injuries in the 
field, we must continue to do everything possible to better 
protect our people. With 147,000 service men and women 
operating in Iraq and Afghanistan, it is our mission to ensure 
that they are provided with the most effective equipment 
available, in a timely manner, and not repeat previous 
mistakes.
    There have been numerous studies and reports by independent 
and government agencies that have all cited inefficiencies in 
the Department's ability to rapidly respond to warfighter 
capability requirements.
    The GAO [Government Accountability Office] notes that, 
currently, multiple entities in the Department of Defense 
reported a role in responding to similar categories of urgently 
needed capabilities: Five entities have a role in responding to 
counter-IED [counter-Improvised Explosive Device] capabilities; 
eight entities have a role in responding to ISR [Intelligence, 
Surveillance, and Reconnaissance] capabilities; and six 
entities have a role in responding to command, control, 
communications, and computer capabilities.
    The committee is aware of an urgent request that was made 
last July by U.S. Forces in Afghanistan for advanced analytic 
capability to analyze the tremendous amounts of intelligence 
information being collected. The request stated, ``This 
shortfall translates into operational opportunities missed and 
lives lost.''
    Further, this specific capability was described by an 
intelligence officer in Afghanistan as ``enabling U.S. Forces' 
ability to find insurgent targets to skyrocket.'' The specific 
capability being requested by U.S. Forces in Afghanistan was 
off-the-shelf. It already was being used by 30 separate units 
and agencies in Afghanistan and here in the United States.
    When our committee chairman and ranking member wrote the 
Department in October, 3 months after the request had been 
made, asking why this capability was being delayed, it was 
determined the request had not even yet made it to Washington. 
This analytic capability is only now being fielded in limited 
numbers while the fielding of the promised program of record 
capability has slipped from November of last year to the end of 
this month.
    The committee is also aware that due to the large number of 
services', agencies', and organizations' failures to use common 
databases for these urgent requests, duplication occurs in 
responding to urgent requests. In one instance, an agency spent 
millions-of-dollars doing a proof of concept on an off-the-
shelf rotorcraft unmanned aerial vehicle that was already being 
used by another service.
    According to the GAO, the Department does not 
comprehensively manage and oversee its urgent needs efforts; 
overlap and duplication exists in the Department's urgent needs 
efforts; and several challenges, such as funding, training, 
technology, and maturity of proposed solutions, could hinder 
the Department's responsiveness to urgent needs in the future.
    We recognize the Department has taken steps to create 
urgent needs processes that are more responsive to urgent 
warfighter requests than traditional acquisition procedures, 
yet the Department has been at this for 10 years, and very 
clearly, much needs to be done in establishing an 
institutionalized capability and process.
    Congress has given the Department of Defense rapid 
acquisition authority. This authority allows for the rapid 
acquisition and deployment of equipment that is urgently needed 
to eliminate a combat capability gap that has resulted in 
combat fatalities. The subcommittee believes the Department 
could improve employment of this rapid acquisition authority 
and better inform decisionmakers within the Department that 
this authority exists. Over the past 5 years, the Department 
has only used this authority four times.
    The Government Accountability Office released a report 
today that is critical of the Department's processes and makes 
several recommendations for improvements. I would hope the 
Department will expeditiously implement these recommendations. 
We are prepared to help, if necessary, legislatively.
    Finally, I again want to assure the men and women in 
uniform and their families that while the acquisition process 
has oftentimes been inefficient and duplicative, it has 
provided the best equipment available to our warfighters.
    Before we begin, I would like to turn to my good friend and 
colleague from Texas, Silvestre Reyes.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 27.]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
  RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Reyes. Thank you, Mr. Chairman.
    And today's hearing covers the critical topic of how the 
Department of Defense fields urgent warfighter needs from the 
field.
    This subcommittee has always operated in a bipartisan 
manner that focuses on the needs of the troops in the field.
    So I want to thank you, Mr. Chairman, for having this 
hearing on this vital issue, and this being our first hearing, 
I hope it underscores the importance of this topic.
    For the purposes of providing oversight to DOD [the 
Department of Defense] and the military services on this issue, 
I think this subcommittee must focus on two key areas: One 
issue is the efficiency, as you mentioned, of responding to the 
operational needs of warfighters in a way that avoids wasting 
money. While efficiency is important and is always something 
that we should focus on, I think it comes in a distant second 
to the other critical issue, which is speed, the speed of DOD's 
responses to urgent operational needs in the field, in other 
words, the warfighters and their needs.
    To me, this is the overriding issue that we face because 
getting a capability into the hands of a soldier, even if it 
isn't the perfect solution or the most affordable, can and 
often does save lives.
    We saw this with the process DOD went through to get MRAPs 
[Mine Resistant Ambush Protected vehicles] in the field. In the 
end, it took Congress and Secretary Gates constantly pushing to 
get these life-saving vehicles deployed. That, regrettably, 
should not have been the case, but it is something hopefully we 
can all learn from.
    But after reading, as you mentioned, GAO's testimony on 
this issue for today's hearing, I am not entirely sure that the 
Defense Department and the military services have fully 
appreciated and learned the lessons they should have from the 
MRAP program.
    While I have no doubt that servicemembers and civilians 
alike at the Pentagon are doing the very best that they can to 
act quickly and that they are working hard every single day, it 
appears that the system, as we all talk about the system, for 
responding to urgent needs has become overly onerous, complex, 
bureaucratic, and slow.
    The GAO identified at least 30 different organizations in 
the Department of Defense involved in responding to these 
urgent operational needs. They also point out that no single 
high-ranking individual is in charge. This is a critical lesson 
learned from the MRAP program.
    Given the massive amounts of funding involved, at least $76 
billion since 2005, and then the urgency of the needs, it is 
not acceptable, simply not acceptable, to have the level of 
fragmentation and overlap that GAO has reported and found in 
their study.
    In addition to understanding what needs to happen with DOD, 
today's hearing will hopefully also help our subcommittee 
identify where Congress can act to improve the system, whether 
through changes in how we provide funding or the authorities 
given to the military services. This needs to be a team effort 
between Congress and DOD.
    So, again, Mr. Chairman, thank you for calling this hearing 
on this vital and critical issue, and I look forward to working 
with you on the topic as we build a National Defense 
Authorization Act for the year 2012.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 29.]
    Mr. Bartlett. Thank you very much.
    Two bells followed by five bells means a series of votes is 
on. We have perhaps 10 minutes or so before we need to leave at 
about 2 minutes before the vote is scheduled to close so that 
we can get our vote. So we can begin your testimony. Depending 
on how long your testimony is, we can have testimony from one 
of you or both of you. I want to thank you very much for coming 
today.
    Mr. Tom Dee, Director, Joint Rapid Acquisition Cell. Mr. 
Dee is also representing the Deputy Secretary of Defense 
William Lynn and the Department's Chief Management Officer.
    And Mr. Bill Solis, Director of Defense Capabilities and 
Management, Government Accountability Office.
    We will proceed with the panel's testimony, as much as we 
can before we need to go to vote, and without objection, all 
the witnesses' prepared statements will be included in the 
hearing record.
    Thank you, sir. You may begin.

 STATEMENT OF THOMAS P. DEE, DIRECTOR, JOINT RAPID ACQUISITION 
 CELL, OFFICE OF THE UNDER SECRETARY OF DEFENSE, ACQUISITION, 
                    TECHNOLOGY AND LOGISTICS

    Mr. Dee. Chairman Bartlett, Ranking Member Reyes, members 
of the Tactical Air and Land Subcommittee, thank you for the 
opportunity to appear before you today to discuss the 
Department of Defense's urgent operational needs processes.
    The experience of war has taught us that new enemy weapons 
and tactics will emerge in times of conflict and that we will 
not always have existing capability or capacity to adequately 
counter those new threats. Addressing those unanticipated 
threats is the underlying purpose of the Department's urgent 
needs processes.
    As is the case for our deliberate requirements and resource 
allocation processes: JCIDS, the Joint Capabilities Integration 
and Development System; PPBES, the Planning, Programming, 
Budgeting and Execution System; and the acquisition processes, 
the urgent needs process is comprised of three main elements: 
deciding what you need, the requirements; providing adequate 
resources to buy it, the programming and budgeting; and 
assessing alternatives and executing a solution, the 
acquisition process, to include the operation and maintenance. 
A fourth critical step, fielding, is also vitally important to 
address since this can be the limiting factor in a contingency 
situation and will shape the suitability of any proposed 
solution.
    The challenge for the JUONs [Joint Urgent Operational 
Needs] process is how to execute each element on a much more 
compressed timeline, often in the absence of well-defined 
requirements, supporting CONOPS [Concept of Operations] and 
doctrine, and/or supporting operations and maintenance 
concepts. Working under such compressed timelines, the 
Department necessarily accepts some higher level of 
programmatic risk in traditional areas of cost, schedule and 
performance. In a time of war, schedule often becomes the risk 
that is least acceptable because the speed at which something 
can be fielded, even if it is only a mitigating capability, is 
often the most relevant factor in reducing the commander's 
operational risk. Not surprisingly, therefore, the commander's 
assessment of his operational risk is where the urgent needs 
process begins.
    As you pointed out and as identified in a recent GAO study, 
there are multiple mechanisms through which a commander can 
submit an urgent operational needs request. Appropriately, 
under Title X responsibilities, the service components have all 
established processes to facilitate a timely response to 
identified warfighter needs.
    In cases where a commander identifies the need as joint, 
the combatant commander certifies the requirement and forwards 
it to the Chairman of the Joint Chiefs of Staff for validation 
as a joint urgent operational need. The Joint Staff Director 
for Force Structure, Resources and Assessments, the J8, uses 
its established functional capability boards to assess both the 
validity and the urgency of the requirement. Should the Joint 
Staff J8 Deputy Director for Requirements, the DDR, determine 
that the need is valid and that it is urgent, he passes it to 
me as the Director of the OSD's [the Office of the Secretary of 
Defense's] Joint Rapid Acquisition Cell.
    I, in turn, coordinate with the service components, JIEDDO 
[the Joint Improvised Explosive Device Defeat Organization], 
the ISR Task Force, other elements of OSD, including the 
Offices of the Assistant Secretary of Defense for Research and 
Engineering, the Assistant Secretary for Logistics and Material 
Readiness, and various Defense agencies to identify potential 
solutions to the validated requirements and any challenges or 
risks associated with executing that solution.
    We then formally task the appropriate component with the 
responsibility to satisfy the need. Now this is not a strictly 
linear process. As soon as the need is identified, the 
combatant commander, CENTCOM [Central Command] in most cases, 
Joint Staff, the JRAC [Joint Rapid Acquisition Cell] and the 
services begin collaborating to determine the most suitable way 
forward.
    There are many challenges associated with compressing the 
requirements, budgeting, and acquisition cycle, but despite 
these challenges, through our urgent needs processes, the 
Department has provided our forces with the best force 
protection, command and control, counter-IED, and ISR 
capabilities available.
    Now, that is not to say that the Department is fully 
satisfied with our processes, with the speed at which we could 
field new capabilities, and our ability to anticipate the next 
threat or with the efficiency with which the whole process 
works. In our 2010 Quadrennial Defense Review, the Department 
recognized the continuing need to build agile, adaptive, and 
innovative structures capable of quickly identifying emerging 
gaps and rapidly adjusting programming and budget priorities to 
mitigate those gaps. Our urgent processes must provide a means 
of quickly prioritizing and quantifying requirements and of 
ensuring that the resources are available to enable rapid 
fielding of capabilities inside of the Department's PPBES 
cycle.
    The Department has also acknowledged and largely concurred 
with the findings and recommendations of the April 2010 GAO 
report on DOD's urgent needs processes. Contained in that 
report are recommendations that the Department implement the 
comprehensive management framework with better defined 
accountability to improve our responsiveness to urgent 
operational needs.
    Section 804 of the fiscal year 2011 National Defense 
Authorization Act further directs the Department to conduct a 
complete review of the process for fielding capabilities in 
response to urgent operational needs and to include 
consideration of earlier GAO reports and a July 2009 
congressionally directed study by the Defense Science Board on 
the fulfillment of urgent operational needs. The legislation 
recommends a streamlined and tightly integrated approach to the 
Department's urgent needs processes, clear definition of the 
roles and responsibilities within the Department for the 
fulfillment of urgent needs, and the development of an 
expedited review process to determine which needs are 
appropriate for a rapid fielding process.
    Concurrent with the development of many of these reports, 
the Department has adapted its urgent processes. Beginning in 
2009, the President's revised strategy in Afghanistan has 
served as a catalyst to initiate, if not fully implement, many 
of the actions recommended in the GAO reports. Among the common 
findings of these many reports is the perceived lack of a 
common management framework and clear senior leadership of our 
urgent needs processes.
    Recognizing the need for improved synergies among the 
multiple organizations that contribute to the counter-IED 
campaign, the Secretary of Defense established a Counter-IED 
Senior Integration Group in November 2009 to leverage the 
efforts of JIEDDO, the military services, the Defense agencies, 
the MRAP task force, and the ISR task force. Under the 
leadership of the Under Secretary of Defense for Acquisition, 
Technology and Logistics, Dr. Ashton Carter, and the Joint 
Staff Director of Operations, the J3, then Lieutenant General 
Jay Paxton, now Lieutenant General Bob Miller, the C-SIG 
[Counter-IED Senior Integration Group] provided clear 
priorities and common focus in the counter-IED fight.
    It quickly became clear, however, that counter-IED is not a 
strictly confined problem set. Multiple capabilities, ranging 
from ISR to force protection, contribute to a successful 
counter-IED campaign. So under the Under Secretary of Defense's 
AT&L [acquisition, technology and logistics] Dr. Carter's 
leadership and with the Secretary's consent, the C-SIG has 
evolved to include oversight of many of the most critical and 
urgent needs of our operational commanders. While the evolved 
role of the Senior Integration Group does not yet enjoy the 
clarity of a written policy directive, the senior governance 
board provides Department-wide focus on expediently meeting the 
urgent needs of our commanders.
    A recent organizational change indicative of this improved 
senior leader focus was the realignment of my office, the Joint 
Rapid Acquisition Cell, from the Rapid Fielding Directorate 
within the Office of the Assistant Secretary of Defense for 
Research and Engineering to a direct report to Dr. Carter as 
the Under Secretary of Defense for AT&L. This organizational 
change has streamlined the decision process for those urgent 
needs submitted by the operational commanders and validated by 
the Joint Staff.
    For example, multiple urgent needs that had been identified 
since the beginning of this fiscal year had been languishing 
for lack of funding. With his direct involvement in the 
process, Dr. Carter was quickly able to bring the issue to the 
attention of Secretary Gates, who convened a meeting of the 
Department's leadership and made a decision to immediately fund 
and execute these urgent needs. Within the authorities 
available to the Department, $350 million was quickly realigned 
to support those critical needs that could be executed quickly. 
An additional $1 billion of requirements was also quickly 
sourced, but since the Department did not have the authority to 
reapportion these funds, a prior notification reprogramming 
request was submitted to Congress for approval.
    Please accept my thanks on behalf of the Department for 
your committee's quick response to this request and approval of 
part three for urgent needs. But unfortunately, due to the 
Department acting without a fiscal year 2011 appropriation, the 
Department lacks a fiscal year 2011 source to support the 
requested urgent operations and maintenance requirements. 
Nevertheless, this action, this reprogramming action, 
demonstrates the Department's commitment at the very highest 
level to quickly make the decisions necessary to respond to 
warfighter requirements.
    Another example of improved focus on urgent needs is the 
increased use of rapid acquisition authority, which you 
addressed in your statement, Mr. Chairman. It was originally 
provided in section 811 of the NDAA [National Defense 
Authorization Act] for fiscal year 2005 and was further amended 
this year. Use of this authority is identified, further 
identified, as an interest item on your committee's oversight 
agenda for the 112th Congress, and I would take to this 
opportunity to also thank the committee for its action in the 
fiscal year 2011 National Defense Authorization Act that 
expanded this authority to include supplies as well as 
equipment and, more importantly, for expanding the authority 
from $100 million----
    Mr. Bartlett. I am sorry. We have a few minutes left in our 
vote. So we need to recess now to go vote, and we will finish 
you testimony when we return and then get to the testimony from 
GAO. Thank you very much.
    [Recess.]
    Mr. Bartlett. We will reconvene our subcommittee. There was 
a little confusion on the floor. The last vote was voiced, and 
that wasn't very clear, so some people are still waiting I 
think for a vote that is not going to occur.
    Mr. Dee, we will let you complete your testimony and then 
proceed with the GAO testimony.
    Mr. Dee. Sure. Thank you, Mr. Chairman.
    Let me pick up by again thanking you for the action the 
committee has taken in modifying the rapid acquisition 
authority within fiscal year 2011 expanding NDAA, expanding the 
authority from $100 million to $200 million per fiscal year. 
The Department has already made use of this expanded authority 
and used $116 million as part of the aforementioned decision by 
the Secretary to immediately fund those most urgent and 
executable needs.
    As our management framework continues to evolve, our 
processes and policies must ensure that all components place 
appropriate priority and use all available authorities to 
deliver timely and effective capabilities to meet the urgent 
needs of our operational commanders. To that end, in March 
2010, Dr. Carter, Under Secretary for AT&L, issued a memorandum 
to the service components highlighting the flexible authorities 
provided through the existing acquisition regulations and 
policy and directing them should those existing authorities be 
insufficient to enable a rapid response to request the use of 
rapid acquisition authority.
    While the Department has enjoyed many successes in rapidly 
delivering capabilities to the field, there are still 
challenges to overcome. The most difficult challenge in rapid 
acquisition is not strictly acquisition, but rather 
prioritizing needs and quickly identifying the resources needed 
to execute a solution.
    While Congress cannot help us with prioritizing our 
warfighting needs, it can help to facilitate their rapid 
funding. The increase of rapid acquisition authority has 
helped, but identifying new funding in the year of execution 
remains a challenge. On average, the Department must expect a 
reprogramming request to take 3 months from the decision to 
fund an urgent need until the funds are authorized. In 
preparing our troops in contact for an upcoming campaign, a 3-
month delay in funding can be an unacceptably long period. The 
Department needs immediate access to the funds needed to 
initiate actions as the soon as the need is validated.
    Our fiscal year 2011 budget submission included a $300 
million overseas contingency operation request and the fiscal 
year 2012 President's budget request includes $100 million in 
the base budget and an additional $100 million in the overseas 
contingency operations to provide immediate source of funding 
for urgent needs. While this money would not fully fund all of 
the Department's urgent needs, it would allow sufficient funds 
to initiate actions immediately while additional funds are 
requested through Congress. Your support of these requests is a 
critical part of our improved responsiveness.
    As we have evolved our structures and processes and 
continually improved our responsiveness, we have recognized the 
value of many of the findings contained within the reports that 
your committee has sponsored over the past several years. While 
we have embraced the need for focused senior leadership, as 
evidenced through the evolution of the Senior Integration 
Group, we are cautious not to allow the imperative to establish 
formal policy and process distract from the continual effort to 
rapidly field those capabilities identified by the operational 
commanders as urgent.
    The changes made in section 803 of the fiscal year 2011 
NDAA expanding the authority given to the Secretary are 
appreciated. I also believe that the review required by section 
804 of the National Defense Authorization Act will also help as 
we strive to strike the appropriate balance between acceptable 
levels of programmatic and operational risks. Pending the 
outcome of that study, the Senior Integration Group will 
continue to function as the Department's senior level 
governance council as we develop and staff the permanent policy 
that will implement the guidance contained within the recent 
Quadrennial Defense Review to institutionalize rapid 
acquisition.
    Thank you, again, for your opportunity to speak with you 
today. While we still have work to do, I believe that the 
Department is on a path towards developing a more agile and 
efficient management framework for responding rapidly to urgent 
needs. And I look forward to your questions.
    [The prepared statement of Mr. Dee can be found in the 
Appendix on page 31.]
    Mr. Bartlett. Thank you very much.
    Mr. Solis.

 STATEMENT OF WILLIAM M. SOLIS, DIRECTOR, DEFENSE CAPABILITIES 
        AND MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Solis. Chairman Bartlett, Ranking Member Reyes, members 
of the subcommittee, I appreciate the opportunity to be here 
today.
    I had a detailed oral statement, but since a lot of the 
findings in the report that we are issuing today have been 
covered by both you and the ranking member, I am going to 
quickly summarize and maybe highlight a couple of things as we 
go forward.
    You mentioned a number of the entities, numerous entities 
that are involved in this urgent needs process--I think there 
were 31--and also that a number were also involved in 
capability development, like counter-IED, the lack of senior 
involvement, the fact that there is no tracking process. But 
there were a couple of things that I just wanted to highlight 
going forward, and that is, in part of this tracking process, I 
think it is not only good to track through from the time the 
process begins validation, the validation process once it comes 
out of theater to the initial fielding, but also, how effective 
is that solution we have fielded to the warfighter? Is it being 
used as it was envisioned? I think also going forward, is this 
something that we might be able to use into the future, another 
combatant command might be able to use the technology or 
materiel solution that has been developed? So I think having 
that tracking system and evaluating the effectiveness of that 
weapons system would also be very, very good.
    And finally, the only other point I want to make in terms 
of our report, as we pointed out, there are a lot of different 
entities involved. There is not a baseline policy in existence, 
and there is a need for senior involvement. But also, we think 
there are some options for potentially consolidating some of 
these entities, and we laid out some of those options and both 
put the advantages and disadvantages in our report. And again, 
we made that recommendation that the Department explore those 
options, particularly the CMO [Chief Management Officer]. The 
Department has concurred with that. But I think going forward, 
that would be one thing that I would probably ask that the 
committee continue to observe, in terms of trying to come up 
with better processes, possibly through consolidation, that can 
help our warfighter get what he needs or she needs in the 
quickest possible manner.
    That concludes what I have to say at this point. I will be 
glad to answer any questions that you or the members of the 
committee might have.
    [The prepared statement of Mr. Solis can be found in the 
Appendix on page 39.]
    Mr. Bartlett. Thank you very much.
    As chairman, I almost always ask my questions last, hoping 
that someone else will ask them, so I don't have to.
    Mr. Reyes has graciously yielded to Mr. Turner because Mr. 
Turner is on a tight time schedule.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Thank you, Mr. Reyes.
    I greatly appreciate that.
    With the votes and the schedule we have had, I appreciate 
the panel's patience as we popped in and out.
    And thank you, Mr. Chairman, for the opportunity.
    Gentlemen, as you know, we are operating currently under a 
continuing resolution. That means Congress never finished its 
work; we never got our job done. So we have not even agreed on 
a document that will pay the bills of the military for this 
year. Just now we are debating and pushing forward a short-term 
continuing resolution, one that would just kick the ball 
forward for only two weeks with the hopes that ultimately we 
will come to resolution on how we will pay our bills for fiscal 
year 2011.
    During the same time, in the environment we have coming out 
of Department of Defense continuing questions of looking to 
efficiencies and reductions and cost savings. And we are 
looking even now to the Congress discussing budget cuts, the 
Department of Defense for 2011, for fiscal year 2011, fiscal 
year 2012. And we have, then, this discussion on the urgent 
needs of the warfighter, emphasis on the word ``urgent.'' And I 
know that every time we discuss budget reductions or the 
continuing resolution, we have to have the effect--understand 
the effect of what it does to DOD to have the uncertainty of 
not having one full year of spending approved. We have the 
uncertainty of cuts and efficiencies, and in all of these 
discussions, people say, but it won't affect the warfighter. 
But I think it does affect the warfighter. I think you probably 
think it affects the warfighter. And certainly I know it gives 
our men and women in uniform insecurity to know that we are 
looking at reductions in spending and even issues of not having 
an agreement on how to pay our bills.
    I wondered if you could speak for a moment on your thoughts 
on the effects of a continuing resolution and its blanket of 
uncertainty that it provides as opposed to our finishing our 
work and giving you one full year of funding for Department of 
Defense as a picture and also, if you have any concerns as we 
go forward in discussing reductions in 2012 and how that might 
ultimately translate to effects to the warfighter. Someone?
    And thank you, Mr. Chairman and Mr. Reyes, again.
    Mr. Dee. Yes, sir. In my comments, I mention that the 
Department will always face unanticipated needs, and we will 
always have the need for adequate funding in an execution year 
in order to be able to resolve these unanticipated needs.
    In some cases, the needs may have been anticipated. We may 
have put money in requested funds in the last year's--in the 
budget request for this year in order to be able to execute 
something that we knew was going to happen this year. There was 
an example given in the classified briefing that took place 
just before this about--and people are aware of Aerostats, the 
need for additional Aerostats. We had actually anticipated that 
need, and we had put funds--the Army had placed funds in their 
budget request within the fiscal year 2012 budget request for 
procurement of additional Aerostats that we just don't have 
access to.
    So, in lieu of that, we have gone through a rather lengthy 
and a very large reprogramming request in order to attempt to 
get the funds for that. That reprogramming request is further 
complicated by the fact that there is not a fiscal year 2011 
source. So included in that reprogramming request, where it is 
$180 million worth of operations and maintenance requirements 
in order to continue to support some things that we have 
fielded and are in the process of fielding right now, without 
an fiscal year 2011 appropriation, there is no fiscal year 2011 
source. As you know, O&M [operations and maintenance] is 1-year 
money, so we can't reach backwards into unobligated 2010 or 
2009 funds. So we just don't have a source to move any 
additional money into fiscal year 2011 O&M accounts right now. 
So, at some stage in the not-too-distant future, some of these 
capabilities that we are pushing forward to the field are not 
going to be able to be funded any longer.
    Now, will there be prioritization where we decide that, 
yes, we want to keep this particular system operating overseas 
and continue the analytical support for a particular system in 
lieu of doing something back here? That is very possibly the 
case. But it does have a fairly significant impact, both in 
terms of when we do manage to anticipate growing needs, 
anticipated needs that we have, in fact, put in the budget that 
we can't now get access to, which leads us to the reprogramming 
action and then also just on the O&M side, just the complete 
inability to be able to move any money into an O&M account.
    Mr. Solis. We haven't looked at that directly, but I would 
say anytime you have uncertainty, whether it is in the budget 
or any program, in terms of trying to figure out where this 
money is going to come from is going to cause issues, if not 
for the warfighter but for potentially other programs from 
where you may draw that money out of, because you don't know 
where that money is going to come from to replace it. And it 
could ultimately have more of an impact on programs that you 
have back here, as opposed to the warfighter, because they will 
try to find--the war fight is always a priority for the 
Department.
    But in terms of what happens particularly when you don't 
know how much money you are going to have for a particular 
program, yes, it can have an effect on those particular 
programs.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Now my good friend and ranking member, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your testimony.
    I have here one of the charts that was furnished to the 
committee. And I want to ask a question regarding the time 
frame that it represents. On this chart, it is titled the JUON 
process flow. It has got some time frames in there that I find 
rather lengthy in my opinion. It takes 14 days as the time 
required to triage one of these warfighter requests and then to 
forward to the Joint Rapid Acquisition Cell. Then the second 
part of it takes 30 days as the time that it takes to get this 
same request to the next step, which is getting it to a 
military service or JIEDDO. And that is only the beginning of 
the process before something actually gets out in the field.
    So the question I have is, why does it take 45 days to 
accomplish these two tasks? Is the problem a lack of people, a 
lack of funding, or is it a coordination issue? What can we do 
to speed up this process? And then is part of the issue that 
maybe it is slow because other entities in DOD don't cooperate 
with your group? So if you can comment on that, I would 
appreciate it, because to me it seems like it is too long a 
process.
    Mr. Dee. Yes, sir. Those time lines that you cited, 14 days 
within the Joint Staff to validate the requirement and then 30 
days in my shop in order to be able to do the assessments and 
task it out. Those are not measures of how long it takes. Those 
are objective goals that we try to stay within whenever 
possible.
    Let me talk a little bit before I get to the specific time 
lines about what happens in those two processes. So what the 
Joint Staff does when they get a requirement from the 
operational commander, from the combatant commander, they work 
within their Functional Capability Boards to do two things: 
One, determine if it is a valid requirement, if there is any 
redundant activities going on or programs of record that could 
be accelerated in order to meet this requirement and then also 
to determine the level of urgency that something may have. So 
they are looking at it from a requirements perspective, working 
with the services through their Functional Capability Board to 
see what other activities may be going on in the Department 
that may be relevant with this, making sure going backwards 
with the combatant commander that they really understand what 
the requirement is.
    When we get these joint urgent operational needs, it is not 
as if you are getting a capabilities development document or a 
capabilities production document with very strictly defined 
performance parameters and objectives and thresholds and such. 
They tend to come in as a much vaguer statement of requirement. 
So trying to figure out, and this is one of the most difficult 
points in this whole urgent needs process is, what is good 
enough. So what is it that we are really going to be able to 
pursue?
    Again, it is not we are going to build something to meet 
these performance parameters. We are going to try to identify 
something that can provide 80 percent of that requirement or 70 
percent or whatever the commander determines is good enough. So 
there is a dialogue that goes back and forth, and that 
requirement should be viewed as somewhat fungible. And that is 
really what takes time on the Joint Staff process is to 
determine, so what is it really that you are looking for? How 
do we get down to the good-enough stage? And then they pass it 
to me.
    Now, my part of it, similarly determining what is good 
enough, let us identify the potential solution set. They are 
looking at it from a requirements side; I am looking at it from 
a solution set side. Let us look at the potential solution set 
that we have got; what is actually executable in the near term? 
What is the technology maturity level of this particular thing 
they are asking for? What is the producability of this? What it 
is it going to cost? Where is the money going to come from? So 
all of those things are what we are kind of working with in 
those two processes before they go out.
    One of the things that we are doing at the moment that I 
mentioned, the Senior Integration Group that falls under Dr. 
Carter and General Neller, is we are trying to consolidate all 
of that. And we do have and have had now for quite a while 
regular video teleconferences with both CENTCOM and with the 
ISAF [International Security Assistance Force] Command and the 
USFOR-A [U.S. Forces-Army] Command to talk through these 
requirements and resolve as many of those things in one spot as 
we can to reduce the time that it takes to be able to push 
things out.
    We have things that fly through the process in a number of 
days, single-digit number of days, and we have other things, 
depending on the complexity, largely when we can't find a quick 
solution, and we have a few examples of those, that the search 
for a solution before you task it to somebody becomes a drawn-
out process and has gone in fact beyond 30 days on some 
occasions.
    Mr. Reyes. So I think what I am hearing you say is that 
these are optimum goals, for 14 days and 30 days, to get 
through these processes?
    Mr. Dee. That is right. I wouldn't use the word 
``optimum.'' I would say that our optimum goals would be 
single-digit days, you know, 1 or 2 days in each spot. But the 
reality is it sometimes takes longer depending on the vagueness 
of the requirement and the complexity of a potential solution 
set. So we use those just to have a measurement, to have a 
target that at least we can measure ourselves against and be 
able to apply some metrics and see how well we are doing.
    Mr. Reyes. Do you track, statistically, do you track the 
average or of, say, 10 requests or 100 requests? Do you keep 
track of that kind of performance or not?
    Mr. Dee. Sir, I am sure Mr. Solis will be willing to add to 
this.
    Mr. Reyes. I am going to ask him next.
    Mr. Dee. Our metrics on this process are not as good as we 
like. I will say that upfront. So we do track the individual 
requirement from the time it comes in until it gets satisfied, 
until it is delivered and satisfied. So we do track that. We do 
track the number of days it takes. We don't have a single 
consolidated database, authoritative database for doing that. 
But between the services, between Central Command, where most 
of these things come from, and the Joint Staff, all have 
databases that collectively provide that information. We don't 
have a nice, neat OSD level dashboard that will present the 
metrics that we would like to see. We would like that, but we 
are not quite there yet.
    So we do track them individually, the individual items. As 
Mr. Solis I am sure will mention, it becomes when you are 
trying to roll up that data from so many different sources, it 
becomes very difficult to measure how well collectively you are 
doing within your process. We could identify with any 
particular requirement how well we have done. When you are 
trying to look at it collectively, it becomes somewhat 
difficult to get that more strategic level metric that says, 
yes, our process works great or it doesn't.
    Mr. Reyes. Okay. Mr. Solis.
    Mr. Solis. I just add, you know, as a mention, they can 
look at maybe from the time elapsed until initial fielding, but 
I think you have got to look at everything in between. And one 
of the things that we talked about was funding and not just 
what gets reprogrammed. But I think one of the hang-ups is, 
where does the source of funding come from, even before you get 
to the reprogramming process?
    And I think if you begin to start building it or breaking 
it down into the elements of where, what is happening, whether 
it is funding, whether it is in the acquisition process, then 
you can start to begin to look at where I should invest my time 
on these choke points. And I think that is the kind of thing 
that you really need to look at as you look through the 
process.
    So, ultimately, you can say, okay, here is where we need to 
spend our time. Here is where we need to figure out a way to 
work through this so we can ultimately field that requirement, 
as soon as possible.
    Mr. Reyes. So somebody like an efficiency expert looking at 
this would find ways to greatly reduce the time?
    Mr. Solis. I think, first, you have got to have the 
information data to say, where are your choke points? And I 
think even the Department I think a couple of years back had 
what they call a Lean Six Sigma team going in and do a look-see 
at that. And I think they began to identify where some of these 
choke points were. And I think that is the kind of thing that 
you then begin to figure out where your solutions, how you are 
going to deal with all of these issues, whether it is funding, 
whether it is the acquisition process or if you have got to go 
out and get an acquisition to satisfy that requirement.
    Even the fielding process, sometimes, you know, if you are 
going to, like we were talking about before, up-armoring all 
vehicles as we did, you just can't pull all of the vehicles out 
in one day and just not--you know. That all takes time. So I 
think you need to have where all these--how long is it taking 
in general for whether it is a counter-IED solution, ISR, 
whatever, so that you have the information so that you can 
begin to make good management decisions.
    Mr. Reyes. I am not sure I like the answer.
    But thank you, Mr. Chairman.
    Thank you both.
    Mr. Bartlett. Thank you. Now in order of the member's 
appearance on the committee, Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Thank you, gentlemen. I read that the Congress has provided 
the Department with rapid acquisition authority to get things 
done quickly, but it has only been used four times since 2005. 
So can you explain a little bit about why that hasn't been used 
more? And what were the four times? What did they request?
    Mr. Dee. Yes, ma'am. The report is a little dated now. 
Since that report was--the data was collected for that report, 
we did a few more rapid acquisition authorities. We just did 
one, which I mentioned in my statement, that the comptroller 
kind of honchoed or directed for $116 million to cover multiple 
projects to be able to move money very quickly. In the past, 
those four that were referred to, two of them were CREW 
systems, counter, radio-controlled IED counter-measure systems, 
and the other two were ISR systems.
    Mrs. Hartzler. I am very interested, as I know many people 
are, in the IED problem that we have. And I see that we have 
invested $19.7 billion so far to counter that, and there is 
3,100 people working on that. I guess I would like a little bit 
more explanation of, what do they do? What do 3,100 people do, 
and what have we gotten for our money with the $19.7 billion?
    Mr. Dee. I will talk to some of that. I think you are 
referring to some numbers associated with prior reports in the 
Joint IED Defeat Organization. So let me talk a little bit 
about what we have gotten for the money and not talk so much 
about their organization, which I prefer to defer to their 
director. As was addressed in a classified briefing, IEDs are 
still the number one casualty over in Iraq. When the Joint IED 
Defeat Organization was stood up back in 2006, you didn't have 
a central focal point for counter-IED within the Department 
and, as importantly, you didn't have a fund that you could 
rapidly reach into in an execution year again in order to 
deliver capabilities.
    So if you look at the capabilities that have been provided, 
it includes everything from CREW, which I just mentioned, 
counter-RCIED, electronic warfare, which pretty much very well 
mitigated the radio-controlled IED threat. It includes things 
like mine rollers. It includes various force protection 
capabilities, standoff explosive detection capabilities. So 
there is a whole range of things that would not have been 
fielded had it not been for an organization like JIEDDO and for 
the flexible appropriation they had been given since their 
startup. In terms of their internal organization, again, I will 
take the question and defer that to the director.
    Mrs. Hartzler. I know there have been some successes at it. 
I represent Fort Leonard Wood, and they have the engineering 
school there. And I was there about a month ago, and they were 
showing me some of the equipment that they are training their 
troops to use in order to try to help with this problem. But 
they also showed me some examples of some IEDs that are come 
back from Afghanistan, and the ingenuity of our enemy is just 
really hard to deal when they take a log and hollow it out and 
just have plastic tubing in it and somehow--I don't remember if 
it was water or air to detonate it or something. But it makes 
it very, very, very difficult. So this is certainly something 
we have to continue to address.
    I just hope that we have had a lot of success with the 
amount of money that we have invested in this. And do you feel 
confident that things are going well in this area, that we are 
making the headway in this prevention?
    Mr. Solis. I will just take a shot at it. Just going back 
to your original question; what are these 3,100 people doing? 
Just, in general, there are three lines or three mission areas, 
as they call them. One is the attack network. One is defeat 
device, and the other one is training mission. One is dealing 
with materiel solutions, much of what we have talked about 
today. Another one is assisting the warfighter in providing 
information about the network of folks who are building or 
creating IEDs. And it is not necessarily an intel center, but 
it has maybe some of those--it looks like an intel center. And 
then there is a training mission about, as our troops are 
getting ready to deploy out to Iraq or Afghanistan, about how 
to deal with IEDs as they encounter them. I mean, that is sort 
of the broad three areas that they deal with.
    I think one of the things we have talked about with JIEDDO 
and while there is no doubt there have been successes in terms 
of some of the fielding, we still don't have a real good 
sense--and this goes back to the thing that we are talking 
about today, about the effectiveness of all of the solutions--
we can tell maybe on a one-on-one, but globally I don't think 
we still have that information out there. So while I think that 
the money has gone to a lot of good things, I think there are 
still questions about how effective are all of the solutions 
that have been provided? Are they meeting all of requirements 
of the warfighter, and are they effective, is this something we 
want to transfer into some other combatant command? I think all 
of those kinds of things are still up in the air.
    Mrs. Hartzler. Is there any consolidation of bringing 
together all of the processes and entities to centralize so 
these decisions are made in one place regarding all of these 
programs?
    Mr. Dee. So there is not a decision to consolidate all of 
the organizations or bring everything under a single hat. That 
was a recommendation that was contained within the 
congressionally directed Defense Science Board Report in 2009 
to create a rapid acquisition and fielding agency, give them a 
one-half percent of the Department's budget, set them aside and 
let them get on with it.
    The difficulty with doing that is that almost relieves the 
rest of the Department from worrying about what the most 
immediate threats are. So what we are working to do and which I 
think we are being relatively successful at is getting the 
larger institution, the 90 percent of the building in the 
Department that is involved in the normal requirements, 
resources, programming and acquisition process, involved in the 
game. To do that, what we have done, instead of saying that now 
JIEDDO no longer exists, ISR task force no longer exists, MRAP 
task force, all these other guys, you are now one organization, 
we pulled their reporting chain under a single spot. And that 
is Dr. Carter's Senior Integration Group, which I addressed 
earlier, co-chaired by the J-3, General Neller. And what that 
provides for us--and going back to an earlier question, what is 
the hard part of this is and what takes longer? The hardest 
part is getting everybody to accept that the requirement is a 
priority. If you have all of this coming to a central senior, 
very, very senior level decision point, that can say, yes, in 
fact, these are priorities, this particular requirement is a 
priority, and everybody from the requirements folks through the 
budgeting, the programming folks, the acquisition folks, all of 
the acquisition folk, the PM [Program Manager], the contracting 
officer, the head of the contracting activity, et cetera, et 
cetera, and to then go back out to the transportation community 
to be able to get something out into the field itself; once all 
of those entities are on the same sheet of music in terms of 
priorities and we can get the money there, then things tend to 
happen pretty well.
    So the hardest part has been getting a common understanding 
of priorities. And I think what Dr. Carter is doing with the 
Secretary's permission through the SIG is going to provide 
that.
    Mrs. Hartzler. Thank you.
    Mr. Bartlett. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you for your efforts. I am actually encouraged. I 
had two of my oldest sons serve in Iraq, and in their service, 
I was really assured by the military leadership, but I always 
hoped, too, that UAVs [Unmanned Aerial Vehicles] would be 
overhead or some level of advanced technology.
    And I share the concern of Congresswoman Hartzler, too, 
that we are dealing with a well-financed enemy, sadly a very 
determined, educated enemy. And so what you are doing is just 
so important to respond to technological challenges to our 
troops that are identified. And with that in mind, and I know 
that you are working with the warfighter to receive input from 
them, and are there mechanisms in place where--I have just 
gotten back from visiting with the troops in Iraq and 
Afghanistan. And if I had suggestions from them, I would like 
to present them to you, but also, is there a mechanism where 
they can communicate directly with your offices?
    Mr. Dee. Yes, sir. We have many mechanisms for reaching 
back both into the services and to OSD and the Joint Staff, to 
identify new requirements to exchange ideas and such. Let me 
just talk real briefly some battle rhythm items. So depending 
on what level you are at, we have a biweekly civics secure VTC 
[Voice Teleconference] with the theater in order to discuss new 
technologies that may be emerging to allow them to take a look 
at these things. They all have--or certainly down at the 
brigade level, they have science and technology advisors that 
allow them to look at this. So from the upfront stuff, we have 
got new opportunities, technical opportunities that may be of 
value to you. We have that exchange through various VTCs and 
such. The Army's research and development and engineering 
command hosts a weekly VTC with many of the same players but 
further expanded that goes to all of the different RCs and the 
leadership of all of the RCs [Regional Commands]--not the 
leadership, but kind of the action officer, 0-6 level within 
all of the RCs to sort of do the same thing, to review 
requirements, to review technical opportunities, to mitigate 
requirements, as well as just to review the delivery of 
capabilities that may be going out there. At the senior-most 
level, Dr. Carter has every 2 to 3 weeks another forum where he 
has leadership of USFOR-A, ISAF and the different codes, the 
different RCs, the Intelligence folks, everybody, CENTCOM, 
ourselves, the Joint Staff and everybody in the building that 
is participating in this thing. So we have lots of venues for 
exchanging information, somewhat informally, but at least to 
make sure everybody understands the state of play both in terms 
of what may be available with technical opportunities as well 
as requirements.
    On the requirements side, there are multiple venues for 
identifying your requirements as well. Of course, the informal 
thing kind of kicks it off, but more formally, depending on the 
service, depending on the type of need that you have, we have 
this JUONs process that we are talking about it if it is a 
joint need, also in a lot of cases if it is a very technically 
difficult problem to solve. But the Army has what they call an 
operational needs statement process. The Marine Corps has a 
process. The Navy and the Air Force all have processes that 
through their component commands they can submit requirements 
that then get vetted through their services, again with OSD 
providing oversight of that and some visibility over the kinds 
of things that they are doing.
    Mr. Wilson. Another resource, we have very creative people 
in our country, such as the chairman of the subcommittee, who 
himself has numerous patents and has been a person who has been 
a visionary on different issues.
    And we have constituents come to us with very enterprising, 
entrepreneurial, helpful suggestions. Should we direct them to 
you, or who should we direct innovators to?
    Mr. Dee. Sir, you can always direct them to us or to me, 
and we can put them in touch with the right folks. There are 
lots of opportunities for industry and folks who have got ideas 
to participate in our process. And each service and 
organization has a slightly different ways of soliciting 
inputs, but we do go through broad agency announcements. We do 
requests for information, requests for proposals. JIEDDO has a 
rolling process that anybody can get on the site and look and 
see what kind of capabilities they are looking for and submit 
proposals.
    If there is something more specific that they have got 
which there may not be a solicitation out there for at all, we 
are more than happy to take a look at it. Of course OSD doesn't 
execute anything, so we would refer to one of the services that 
has got responsibility for that particular capability area.
    Mr. Wilson. Again, I want to thank you.
    And 10 years ago, I was at the National Training Center in 
Desert Warfare training with the Army National Guard, and I 
like to point out that the equipment I have is now 5 
generations removed, and I say that complimentary. So thank you 
very much for your efforts.
    Mr. Chairman.
    Mr. Bartlett. Thank you.
    We will have several questions for the record. I just have 
three brief questions before we recess the committee.
    Mr. Dee, we understand that DOD is developing new guidance 
for its urgent needs process to be issued in a directive-type 
memorandum. When do you expect this new guidance to be issued?
    Mr. Dee. Sir, I told the GAO in response to the report in 
March of 2010 that that directive was forthcoming, and I think 
we are now a year later, and I don't have it. But what has 
happened in that interim period, again, was the evolution of 
the Senior Integration Group. We are now codifying decisions 
that the Secretary has made in regards to using the Senior 
Integration Group as the single senior leadership point 
decisionmaker for the Department. We are codifying that in a 
directive-type memorandum.
    I would like to give you a specific date when it will be 
done, but given the coordination process within the Department, 
it could be anywhere between a month and 4 months from now.
    Mr. Bartlett. Okay. The next question. Does DOD have a 
visibility over how well urgent needs solutions are performing? 
If so, has the Department performed analysis of this data, and 
what are the results of any such analysis?
    Mr. Dee. Sir, again, the execution happens at many 
different levels of these various processes. Each entity, each 
component that executes these urgent needs processes has an 
assessment process in place. We have multiple, both the Army's 
Test and Evaluation Command and the Marine Corps' Operational 
Test and Evaluation Command have folks overseas in theater that 
do operational assessments or capability limitations 
assessments of systems that have been fielded. They distribute 
surveys of the users of these things to try to get an idea of 
how well they are using.
    JIEDDO does something similar, also leveraging the ATEC 
[Army Test and Evaluation Command] efforts but also using some 
of their own folks to do assessments both before things are 
deployed but, as importantly or even more importantly, while 
they are deployed to figure out what the operational 
effectiveness of this stuff is.
    So, within each of those entities, there is an organization 
that manages these assessments that provide to the operational 
users in order to determine if what we did think was good 
enough is in fact good enough to mitigate the particular 
capability gap. All of those reports--and I think in ATEC's 
case, it is about 166 reports they have done in the past 18 
months or so on urgently fielded requirements. Those are all 
available on the various component Web sites within the 
Department. They are not necessarily rolled up into a single 
spot.
    But the folks who are stakeholders in those particular 
capabilities, whether from the acquisition side, the 
requirements side or from the operational user overseas, they 
do have access to that. And those reports, as well as the 
service that they do, then inform any changes to the 
requirements that they may have, which may be a modification to 
a JUON. It may be the recision of a JUON, or it may be the 
submission of a whole new JUON, because what we thought was 
going to work just plain didn't work and we are starting over 
again.
    Mr. Bartlett. Thank you.
    Mr. Solis, you said that in addition to lacking 
comprehensive guidance, DOD does not have a senior-level focal 
point for urgent needs. Why is it so important that DOD have 
such a focal point?
    Mr. Solis. It sounds like they are going to have a senior 
focal point, based on what I heard today. But I think it is 
important because you need somebody who can go between all of 
the different offices, and we mentioned all of the different 
entities that are involved in the urgent needs process. Without 
that senior leadership--and we have seen that in other areas of 
counterterrorism, business transformation, contracting and 
contingencies, that when you have senior leadership--and I mean 
senior leadership at the AT&L level, which we are talking about 
in this case, I think that is going to help make things move 
different things through the process. Whether it be funding, 
whether it gets hung up for some other reason, I think that 
senior leadership can step in and make things happen.
    I think the most extreme example of that is the MRAP. When 
Secretary Gates said, we want to make this happen, it happened. 
I am not saying that the Secretary can do that at every time. 
But when you do have that senior leadership involvement, it can 
help facilitate and move things in ways that haven't been even 
thought of.
    Mr. Bartlett. Mr. Reyes, do you have any additional 
questions?
    Mr. Reyes. I was just going to mention, although we are 
focused on challenges, are there some good news stories out 
there of things that we were able to deploy very quickly, 
capabilities that were asked for that we were able to get them 
out--kind of give you a shot at a good news story that you can 
comment on?
    Mr. Dee. Yes, sir. Thank you for that opportunity.
    But, yes, I think we do have lots of good news stories. 
Some of them were briefed at the classified briefing that 
happened beforehand. But we can mention the Aerostats, and you 
saw the effect that those are having, and that was a very quick 
turnaround on a very large, complex program that not the least 
part of the complexity being the fielding of those capabilities 
and actually getting them to all of these remote sites and 
getting them set up, which was a very difficult challenge.
    But if you look at--MRAP was mentioned already; MATV [MRAP-
All Terrain Vehicle] mentioned already, all of those things. A 
lot of the counter-IED equipment, the CREW equipment, which has 
largely mitigated what was a very serious threat not many years 
ago. A lot of these things are tremendously good news stories. 
We have--although not a rapid acquisition fielding agency, not 
everything coming through a single office, between the 
components, the various task forces that we have and that have 
stood up over the years, we have pushed a lot of good stuff 
over into the field. And I said in my statement that we believe 
that our Forces have got the best force protection, counter-
IED, ISR, C2 [Command and Control] capabilities in the world. A 
lot of that has been developed through these urgent processes. 
And we believe that sincerely that they do have that.
    We think there is still a ways to go. We are always looking 
for better technologies and better capabilities to provide to 
them. But we do think that given in your opening statement, 
putting the imperative on the speed to get things over there, 
rather than on the risks associated with the traditional cost 
schedule and performances, we think we have had some successes 
since the early days of this war.
    Mr. Reyes. Good.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    I have but one brief question before we adjourn the 
committee. I hope you will humor me in a little poll that I am 
conducting. This has to be one of the most asymmetric wars in 
the history of the world. If you will take a piece of paper, 
without consulting with your colleague, and write down a number 
when I ask you for it and then read that number back to me. For 
every dollar that they spend on IEDs, how many dollars do we 
spend in response, like MRAPs and mine rollers and ISR and 
JIEDDO and just an educated guess? Write that number down.
    Mr. Solis. Sir, again, the question is how much do you 
think----
    Mr. Bartlett. For every dollar they spend for putting an 
IED out there on the road or out in the field, how many dollars 
have we spent in response to that, including things like MRAPs 
and JIEDDO and the whole gamut of things, the little dirigibles 
that are up there that are surveilling them, the pilotless 
aircraft.
    Okay. Mr. Dee, your number?
    Mr. Dee. Sir, this may be low-balling it, but I think it is 
probably at least 1,000 to 1.
    Mr. Bartlett. I was wondering whether it was closer to a 
1,000 to 1 or a million to 1.
    Mr. Solis?
    Mr. Solis. I had put 1,000 to 1.
    Mr. Bartlett. You put 1,000 to 1.
    Okay. Thank you very much for my little poll. Thank you 
very much for your testimony. And we will submit some questions 
for the record. We would appreciate you responding to that. We 
now stand in adjournment.
    [Whereupon, at 5:13 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 1, 2011

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 1, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5110.025
    
    [GRAPHIC] [TIFF OMITTED] T5110.026
    
    [GRAPHIC] [TIFF OMITTED] T5110.027
    
    [GRAPHIC] [TIFF OMITTED] T5110.028
    
    [GRAPHIC] [TIFF OMITTED] T5110.001
    
    [GRAPHIC] [TIFF OMITTED] T5110.002
    
    [GRAPHIC] [TIFF OMITTED] T5110.003
    
    [GRAPHIC] [TIFF OMITTED] T5110.004
    
    [GRAPHIC] [TIFF OMITTED] T5110.005
    
    [GRAPHIC] [TIFF OMITTED] T5110.006
    
    [GRAPHIC] [TIFF OMITTED] T5110.007
    
    [GRAPHIC] [TIFF OMITTED] T5110.008
    
    [GRAPHIC] [TIFF OMITTED] T5110.009
    
    [GRAPHIC] [TIFF OMITTED] T5110.010
    
    [GRAPHIC] [TIFF OMITTED] T5110.011
    
    [GRAPHIC] [TIFF OMITTED] T5110.012
    
    [GRAPHIC] [TIFF OMITTED] T5110.013
    
    [GRAPHIC] [TIFF OMITTED] T5110.014
    
    [GRAPHIC] [TIFF OMITTED] T5110.015
    
    [GRAPHIC] [TIFF OMITTED] T5110.016
    
    [GRAPHIC] [TIFF OMITTED] T5110.017
    
    [GRAPHIC] [TIFF OMITTED] T5110.018
    
    [GRAPHIC] [TIFF OMITTED] T5110.019
    
    [GRAPHIC] [TIFF OMITTED] T5110.020
    
    [GRAPHIC] [TIFF OMITTED] T5110.021
    
    [GRAPHIC] [TIFF OMITTED] T5110.022
    
    [GRAPHIC] [TIFF OMITTED] T5110.023
    
    [GRAPHIC] [TIFF OMITTED] T5110.024
    


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 1, 2011

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. Mr. Dee, we understand from GAO's report and 
testimony today that DOD does not have in place a comprehensive 
approach for managing all of its various urgent needs processes. More 
specifically, GAO said DOD needs to develop DOD-wide guidance that, 
among other things, defines roles, responsibilities and authorities, 
and designates a senior-level focal point for urgent needs. GAO also 
recommended that DOD evaluate potential options for consolidation. We 
understand DOD concurred with all of GAO's recommendations. Can you 
tell us what specific actions DOD plans to take to address them? Given 
that DOD concurred with GAO's recommendation to evaluate potential 
options for consolidation, can you give us examples of where you might 
consolidate urgent needs entities and/or processes, and any cost 
savings you may achieve through such consolidation? We understand that 
DOD is developing new guidance for its urgent needs processes, to be 
issued as a directive type memorandum. When do you expect this new 
guidance to be issued?
    Mr. Dee. As part of the review directed by Section 804 of the Ike 
Skelton National Defense Authorization Act for Fiscal Year 2011 (Public 
Law 111-383), we will consider the various improvements to the 
acquisition process for rapid fielding of capabilities in response to 
urgent operational needs. The assessment will address the specific 
items required by Section 804 as well as those that have been 
recommended by the GAO, the FY09 Defense Science Board Report and 
others. Specifically we intend to develop DOD-wide guidance and 
evaluate potential options for consolidation. This review and report to 
Congress will be completed by January 7, 2012.
    As stated in our response to GAO report 11-273, published March 1, 
2011, we will assess options for consolidation as part of the Section 
804 study.
    We are currently coordinating a draft DOD policy memorandum to 
establish a ``Senior Integration Group for the Resolution of Joint 
Urgent Operational Needs.'' Completion is contingent on the successful 
resolution of any critical comments we receive but we anticipate 
finalizing the memorandum in April 2011.
    Mr. Bartlett. Section 804 of the Ike Skelton National Defense 
Authorization Act for Fiscal Year 2011 calls for the Department to 
conduct a broad review of its urgent needs processes and report back to 
the Congress in January 2012. Who in the Department will be responsible 
for conducting this study? Based on the results of that study will an 
implementation plan be developed for any actions to be taken, to 
include milestones and metric to measure progress? Who would be 
responsible for developing and implementing such a plan? Do you 
anticipate the Department will take any actions prior to reporting back 
to Congress in January 2012?
    Mr. Dee. The Under Secretary of Defense for Acquisition, Technology 
and Logistics will have overall responsibility for conducting the 
review in coordination with other components of the Office of the 
Secretary of Defense, The Joint Staff and the Services. We are unable 
to appropriately respond to your other questions until completion of 
the review.
    Mr. Bartlett. Numerous solutions have been developed and fielded in 
response to urgent needs over the past several years. These include 
large equipment items such as MRAPs, sophisticated counter-IED 
technologies and teams of experts to provide support with law 
enforcement and cultural awareness issues. Does your office track the 
amount of equipment and other solutions that have been fielded, and if 
so how much has been fielded in terms of costs? If you do not track 
these solutions, who does? Does DOD have visibility over how well 
urgent needs solutions are performing? If so, has the Department 
performed analyses of this data and what are the results of any such 
analyses?
    Mr. Dee. Urgent needs are primarily satisfied through Service 
acquisition processes and deployed in support of U.S. Forces who 
maintain accountability for the equipment and other urgent needs 
solutions. We do not have nor can we readily obtain a cost for the 
amount of equipment and other solutions that have been fielded. The 
Defense Science Board estimated, in September 2009, that $50B was spent 
by DOD for urgent warfighter needs from 2005 to 2009. Subsequently, the 
GAO estimated that department-wide urgent needs efforts cost at least 
$76.9B from Fiscal Year 2005-2010.
    The various DOD Components fulfilling urgent needs track equipment 
and costs in accordance with Component and Department policy. Joint IED 
Defeat Organization, the Army's Rapid Equipping Force, Army Test and 
Evaluation Command, the Marine Corps Systems Command and many other 
Departmental organizations provide a robust presence in theater to 
evaluate the performance of their equipment and report on their 
capabilities and limitations.
    The Joint Rapid Acquisition Cell hosts a monthly Central Command 
Joint Urgent Operational Needs (JUONs) Review to monitor progress in 
the fulfillment of JUONs and to provide CENTCOM with a venue to discuss 
any problems identified in their deployment or effectiveness of JUON 
solutions. Services maintain oversight of their responses to Component 
specific urgent needs.
    There have been no Department level analyses on the performance of 
urgent needs solutions. Service testing organizations often review the 
performance of individual initiatives to assess their capabilities and 
limitations and report these results to the Services.
    Mr. Bartlett. In November of 2009, the Secretary of Defense 
established the Counter-IED Senior Integration Group (or CSIG) to 
integrate, prioritize and accelerate activities across the Department 
of Defense to counter the IED threat in Afghanistan. We understand that 
this group was initially planned to be temporary and to be discontinued 
in June 2010. What role has JRAC had with respect to the CSIG? How have 
the roles of this group fit into the urgent needs processes? Can you 
tell us what the status is of this group and is the department 
considering similar senior-level involvement for other urgent needs 
areas beyond counter-IED? Was the CSIG created to overcome any 
authority issues with regard to JRAC or the Joint IED Defeat 
Organization? If so, what were these limitations and how has CSIG been 
able to overcome them?
    Mr. Dee. The Director, Joint Rapid Acquisition Cell (JRAC), 
participates as a member of the C-SIG. The C-SIG's role has evolved to 
become the Department's senior level governance council with oversight 
of many of the most critical urgent needs of our operational 
Commanders, not just Counter IED requirements. The C-SIG is expected to 
be re-chartered as the Senior Integration Group, in the near future, to 
reflect its broader role as the senior level governance council for the 
Department's urgent operational needs.
    No, the C-SIG was not created to overcome any authority issues with 
regard to JRAC or the Joint IED Defeat Organization.
    Mr. Bartlett. JRAC has moved organizationally a couple of times in 
the past few years, with the latest move elevating it to directly 
report to the Under Secretary of Defense for Acquisition, Technology 
and Logistics. Why was this latest change made? Did JRAC previously 
experience any issues with having the necessary authority to do its 
mission? Do you believe this latest move places JRAC in the most 
appropriate position, and does JRAC have the authority it needs to 
effectively carry out its roles and responsibilities?
    Mr. Dee. This organizational change was made to streamline the 
decision process for those urgent needs submitted by the operational 
Commanders and validated by the Joint Staff.
    The JRAC did not previously experience any issues with having the 
necessary authority to do its mission.
    Yes, the personal involvement of senior leadership in the 
resolution of Joint Urgent Operational needs ensures that the JRAC is 
well positioned for success and provided ample authority to carry out 
its roles and responsibilities.
    Mr. Bartlett. As Mr. Solis from GAO stated in his testimony, in 
April 2010, GAO cited challenges in obtaining funding as a major factor 
that increased the time needed to field urgent needs solutions to the 
warfighter. Accordingly, to improve the availability of funding, GAO 
recommended that DOD (1) designate an entity to recommend the use of 
rapid acquisition authority to the Secretary of Defense where 
appropriate for urgent needs and (2) create an executive council to 
make timely funding decisions as urgent needs are validated. What 
action has DOD taken with regard to GAO's recommendations? What other 
actions, if any, have DOD taken to improve the timely availability of 
funding for urgent needs? Does DOD have a means to continually evaluate 
the timeliness of its urgent needs funding processes and, if so, what 
does this evaluation show?
    Mr. Dee. The JRAC currently serves as the entity recommending use 
of rapid acquisition authority to the Secretary of Defense. The Counter 
Improvised Explosive Device Senior Integration Group (C-SIG), soon to 
be the Senior Integration Group (SIG), is a senior governance council 
co-chaired by the USD(AT&L) and The Joint Staff J-3 that provides 
oversight of the funding, contracting and fulfillment of critical 
urgent needs.
    The Department uses Overseas Contingency Operation (OCO) funding, 
below-threshold reprogramming, above threshold reprogramming, and rapid 
acquisition authority to provide funding for urgent needs during the 
year of execution.
    To mitigate the inherent delays in the reprogramming process, the 
Department has requested funds for urgent operational needs. The Fiscal 
Year (FY) 2011 budget submission included a $300M OCO request which has 
not been appropriated and was not supported by the Defense committees. 
The FY12 President's Budget Request includes $100M in the base budget 
and an additional $100M in the OCO request to provide an immediate 
source of funding for urgent needs.
    The JRAC monitors funding of Joint Urgent Operational Needs and the 
Military Departments provide oversight of their respective 
requirements. The JRAC has supported the C-SIG, in its evolving role, 
in monitoring the funding status of urgent operational needs under the 
oversight of the C-SIG. These evaluations have again demonstrated, as 
the GAO and others have found, that there are improvements that can be 
made to the funding processes. The results of the evaluations will be 
folded into the process improvements considered as part of the 
assessment and process improvements required by section 804 of the Ike 
Skelton National Defense Authorization Act for FY11 (Public Law 111-
383). Funding process improvements will be addressed in the report to 
Congress required by section 804.
    Mr. Bartlett. How do you see the future integration of DOD's urgent 
needs processes with its traditional acquisition system? Will these two 
processes remain separate or will there eventually be one integrated 
approach?
    Mr. Dee. The urgent needs processes are currently under review in 
response to section 804 of the Ike Skelton National Defense 
Authorization Act for Fiscal Year 2011 (Public Law 111-383). The 
relationship of urgent needs processes and the ``traditional 
acquisition system'' will be assessed as a part of this review.
    Mr. Bartlett. In your testimony, you said that GAO identified at 
least 31 entities that have a role in managing urgent needs, and that 
overlap and potential duplication exists among these entities. Can you 
give us an example of where such overlap and potential duplication may 
exist?
    Mr. Solis. As cited in our most recent reports \1\ and testimony 
\2\, we found that overlap exists among urgent needs entities in the 
roles they play as well as the capabilities for which they are 
responsible. For example:
---------------------------------------------------------------------------
    \1\ GAO, Warfighter Support: DOD's Urgent Needs Processes Need a 
More Comprehensive Approach and Evaluation for Potential Consolidation, 
GAO-11-273 (Washington, D.C.: March 1, 2011) and GAO, Opportunities to 
Reduce Potential Duplication in Government Programs, Save Tax Dollars, 
and Enhance Revenue, GAO-11-318SP (Washington, D.C.: March 1, 2011).
    \2\ GAO, Warfighter Support: DOD Should Have a More Comprehensive 
Approach for Addressing Urgent Warfighter Needs, GAO-11-417T 
(Washington, D.C.: March 1, 2011).
---------------------------------------------------------------------------
    <all>  There are numerous places for the warfighter to submit a 
request for an urgently needed capability. Warfighters may submit 
urgent needs, depending on their military service and the type of need, 
to one of the following different entities: Joint Staff J/8, Army 
Deputy Chief of Staff G/3/5/7, Army Rapid Equipping Force, Navy Fleet 
Forces Command or Commander Pacific Fleet, Marine Corps Deputy 
Commandant for Combat Development and Integration, Air Force Major 
Commands, Special Operations Requirements and Resources, or the Joint 
improvised Explosive Device Defeat Organization. These entities then 
validate the submitted urgent need request and thus allow it to proceed 
through their specific process.
    <all>  Multiple entities reported a role in responding to similar 
types of urgently needed capabilities. GAO identified eight entities 
focused on responding to intelligence, surveillance and reconnaissance 
(ISR) capabilities, five entities focused on responding to counter-
improvised explosive device (IED) capabilities, and six entities 
focused on responding to communications, command and control, and 
computer technology.
    Additionally, we found potential duplication of efforts as several 
entities have focused on developing solutions for the same subject 
areas, such as counter-IED and ISR capabilities. For example, both the 
Army and the Marine Corps had their own separate efforts to develop 
counter-IED mine rollers.
    Mr. Bartlett. In your testimony you say that GAO identified ``at 
least'' 31 entities and that you identified funding for urgent needs to 
be ``at least'' $76.9 billion. Why can't you be more specific as to the 
total number of urgent needs entities and costs?
    Mr. Solis. As cited in our recent work \3\, DOD cannot readily 
identify the totality of its urgent needs efforts, including the cost 
of such efforts, because it has limited visibility over all urgent 
needs submitted by warfighters--both from joint and service-specific 
sources. DOD and service officials cited two impediments to full 
visibility: the lack of a comprehensive tracking system to manage and 
oversee all urgent needs identified by the warfighter and a lack of 
clearly defined roles. Thus, we describe our estimate to be ``at 
least'' because the amounts we reported may underestimate the actual 
total amounts expended on urgent needs from fiscal years 2005 through 
2010 because the list of entities is not exhaustive. In conducting our 
work, we cast a wide net in an attempt to capture the universe of 
urgent needs entities and costs.
---------------------------------------------------------------------------
    \3\ GAO-11-273 and GAO-11-417T.
---------------------------------------------------------------------------
    Mr. Bartlett. You said that in addition to lacking comprehensive 
guidance, DOD does not have a senior-level focal point for urgent 
needs. Why is it so important that DOD have such a focal point?
    Mr. Solis. As cited in our recent work \4\, it is important that 
DOD have a senior-level focal point to manage, oversee, and have full 
visibility to track and monitor all emerging capability gaps being 
identified by warfighters in-theater. Specifically, a focal point is 
necessary to 1) lead the department's efforts to fulfill validated 
urgent needs requirements; (2) act as an advocate within the department 
for issues related to DOD's ability to rapidly respond to urgent needs; 
(3) develop and implement DOD-wide policy on the processing of urgent 
needs or rapid acquisition, or (4) maintain full visibility over its 
urgent needs efforts and the costs of those efforts. Moreover, without 
establishment of a senior-level focal point, DOD officials may be 
unable to identify areas for improvement, including consolidation, to 
prioritize validated but unfunded requirements, to identify funding 
challenges and a means to address such challenges, or ensure 
collaboration to modify capabilities in development to meet several 
similar urgent needs requirements--and may be unable to reduce any 
overlap or duplication that may exist as solutions are developed or 
modified. We have previously testified \5\ and reported \6\ on the 
benefits of establishing a single point of focus at a sufficiently 
senior level to coordinate and integrate various DOD efforts to address 
concerns, such as with counterterrorism and the transformation of 
military capabilities.
---------------------------------------------------------------------------
    \4\ GAO-11-273 and GAO-11-417T.
    \5\ GAO, Combating Terrorism: Comments on Counterterrorism 
Leadership and National Strategy, GAO-01-556T (Washington, D.C.: Mar. 
27, 2001).
    \6\ GAO, Military Transformation: Clear Leadership Accountability, 
and Management Tools Are Needed to Enhance DOD's Efforts to Transform 
Military Capabilities, GAO-05-70 (Washington, DC.: Dec. 17, 2004).
---------------------------------------------------------------------------
    Mr. Bartlett. You point out that DOD does not have a universal set 
of metrics for its urgent needs processes. Are you saying that DOD 
cannot determine whether its processes are working or not?
    Mr. Solis. As cited in our recent work \7\, we found that disparate 
tracking systems limit DOD's visibility over its urgent needs process 
and can hamper improvement efforts. Although the Joint Staff and the 
military services maintain databases to track urgent needs solutions as 
they move through their processes, more than a third of the entities we 
reviewed did not collect or provide the necessary information to those 
systems to track the solutions. Having disparate systems and a lack of 
adequate data makes it very difficult for DOD to comprehensively 
evaluate the progress of urgent needs solutions, perform analyses to 
determine effectiveness of the overall processes, and identify needed 
improvements.
---------------------------------------------------------------------------
    \7\ GAO-11-273 and GAO-11-417T.
---------------------------------------------------------------------------
    Further, our work found that DOD has not established a universal 
set of metrics for evaluating the effectiveness and tracking the status 
of solutions provided to the warfighter. The majority of DOD urgent 
needs entities we surveyed reported that they do not collect all the 
data needed to determine how well these solutions are performing. Thus, 
DOD and military service officials have limited awareness of all urgent 
needs--including how well those needs are being met--which can hamper 
their ability to effectively manage and identify areas where overlap 
and duplication exist. Without the establishment of a metric or 
mechanism to track the status of a validated requirement, including its 
transition, and full visibility, the department may not be able to 
identify key improvements. Moreover, without a formal feedback 
mechanism or channel for the military services to provide feedback, the 
department is likely to be unaware of how well fielded solutions are 
performing.
    Mr. Bartlett. In your report, you recommend that DOD's Chief 
Management Officer should evaluate potential options for consolidation 
and you provide several examples of such consolidations. Are you saying 
DOD should pick one of these, or is your recommendation much broader?
    Mr. Solis. We did not intend that the department be limited to 
those ideas we presented. We analyzed several operations aimed at 
potential consolidations and increased efficiencies in an effort to 
provide ideas for the department to consider in streamlining its urgent 
needs entities and processes. The options GAO identified are not meant 
to be exhaustive or mutually exclusive. The examples we provided may 
not be the only possible ways to consolidate urgent needs entities or 
processes. We recognize there are benefits and trade-offs for each 
potential option and that DOD would need to perform its own analysis, 
carefully weighing the advantages and disadvantages of options it 
identifies to determine the optimal course of action. Given the 
increasing number of urgent needs and the escalating fiscal challenges, 
it is critical for DOD to reevaluate the current status of how it 
fulfills its urgent needs and whether there is potential to reduce 
duplication, fragmentation, and overlap to achieve increased 
efficiencies or cost savings, or both.

                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Current conversation on the Budget has shifted focus 
from the warfighter. In his State of the Union address President Obama 
devoted only six sentences to the war in Afghanistan. The 25-second 
standing ovation that followed lasted almost as long as the President's 
war remarks. I am concerned that our government's diverted attention 
from the war in Afghanistan will result in an underfunding of important 
programs that will cost the lives of the men and women in uniform 
fighting on the front lines.
    Will the Secretary of Defense's efficiency plan and defense cuts in 
any way prevent our men and women in uniform from receiving the modern 
equipment and support that they need?
    Mr. Dee. The Department continues to fund the urgent operational 
needs of the warfighter and uses Overseas Contingency Operations (OCO) 
funding, below-threshold reprogramming, above-threshold reprogramming, 
and rapid acquisition authority to provide funding for urgent needs 
during the year of execution.
    The President has supported and continues to support funding 
requests to fulfill urgent operational needs. The President's Fiscal 
Year (FY) 2011 budget submission included a $300M OCO request to be 
used to fund urgent operational needs. This has not been appropriated 
and was not supported by the Defense Committees. This has required the 
Department to fund such urgent needs using other authorities that, in 
some instances, added delay in providing capability to the warfighter.
    The FY12 President's Budget Request includes $100M in the base 
budget and an additional $100M in the OCO request to provide an 
immediate source of funding for urgent needs. While this money would 
not fully fund all of the Department's urgent needs, it would allow 
sufficient funds to initiate actions immediately while additional funds 
are requested through Congress.
    Mr. Turner. Much has been said about the effects of the continuing 
resolution on military operations.
    a. To date, how has the continuing resolution impacted the 
warfighter?
    b. Explain how the continuing resolution could continue to endanger 
our troops?
    c. What would be the impact of a yearlong continuing resolution on 
equipping the warfighter?
    Mr. Dee. Secretary Gates has stated that a yearlong continuing 
resolution or significant funding cut for Fiscal Year 2011 will cause a 
crisis for the Department of Defense. This includes significant impacts 
on the Department's responsiveness to urgent needs. It affects 
anticipated urgent needs because we can't access budgeted funding and 
must reprogram funds to cover these requirements. It also adversely 
impacts operations and maintenance (O&M) requirements because we are 
unable to reprogram any funding into the O&M account.
    Mr. Turner. Current conversation on the Budget has shifted focus 
from the warfighter. In his State of the Union address President Obama 
devoted only six sentences to the war in Afghanistan. The 25-second 
standing ovation that followed lasted almost as long as the President's 
war remarks. I am concerned that our government's diverted attention 
from the war in Afghanistan will result in an underfunding of important 
programs that will cost the lives of the men and women in uniform 
fighting on the front lines.
    Will the Secretary of Defense's efficiency plan and defense cuts in 
any way prevent our men and women in uniform from receiving the modern 
equipment and support that they need?
    Mr. Solis. Our work has not evaluated the impact of the Secretary 
of Defense's efficiency plan or defense cuts on meeting urgent needs 
identified by the warfighter. However, we have examined funding issues 
related to urgent needs in the past. For example, in April 2010 \8\, we 
reported that the amount of time needed to field urgent needs solutions 
has been increased by the challenge of obtaining funding, in one case 
adding as much as 293 days to the time needed to field a solution to 
the warfighter. We found that funding challenges exist in part because 
the Office of the Secretary of Defense (OSD) has not given any one 
organization primary responsibility for determining when to implement 
the department's statutory rapid acquisition authority or to execute 
timely funding decisions. In addition, we reported that DOD can 
reprogram funds appropriated for other purposes to meet urgent needs 
requests, but authority for determining when and how to reprogram funds 
has been delegated to the services and combatant commands. However, we 
found that the services are reluctant to reprogram funds from their 
respective budgets to fund solutions to joint urgent needs and that DOD 
faced challenges in consistently securing timely cooperation from them. 
Our prior work \9\ has demonstrated that strong leadership from OSD 
over resource control is critical to overcoming the deeply entrenched 
nature of the department's financial management challenges. 
Accordingly, we recommended in April 2010 that the Secretary of Defense 
designate an entity with primary responsibility for recommending use of 
rapid acquisition authority and that DOD establish an executive council 
to make timely funding decisions on urgent need requests. The 
department partially concurred with these recommendations and 
identified actions it planned to take to address them.
---------------------------------------------------------------------------
    \8\ GAO, Warfighter Support: Improvements to DOD's Urgent Needs 
Processes Would Enhance Oversight and Expedite Efforts to Meet Critical 
Warfighter Needs, GAO-10-460 (Washington, D.C.: Apr. 30, 2010)
    \9\ GAO, Defense Infrastructure: High-Level Leadership Needed to 
Help Communities Address Challenges Caused by DOD-Related Growth, GAO-
08-665 (Washington, D.C..: June 17, 2008).
---------------------------------------------------------------------------
    Mr. Turner. Much has been said about the effects of the continuing 
resolution on military operations.
    a. To date, how has the continuing resolution impacted the 
warfighter?
    b. Explain how the continuing resolution could continue to endanger 
our troops?
    c. What would be the impact of a yearlong continuing resolution on 
equipping the warfighter?
    Mr. Solis. The continuing resolution was not within the scope of 
our work. Thus, we did not evaluate the impact of continuing 
resolutions on equipping the warfighter. However, as stated previously, 
we have identified cases in prior work where funding challenges have 
lengthened the time needed to field urgent needs solutions to the 
warfighter. In these cases, the funding issues we identified occurred 
in part because DOD may not have been effectively managing the 
resources it had. For example, as noted above, in April 2010, we 
reported that funding has not always been provided in a timely manner 
for joint urgent needs in part because OSD has played a reactive rather 
than proactive role in making decisions about when to invoke the 
department's rapid acquisition authority. In addition, we reported that 
DOD delegated the authority for determining when and how to reprogram 
funds for addressing urgent needs to the services and combatant 
commands, but faced challenges in consistently securing timely 
cooperation from them.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
